No. 20-255

In The

Supreme Court of the United States
____________
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
V.
B. L., A MINOR, BY AND THROUGH HER FATHER,
LAWRENCE LEVY AND HER MOTHER, BETTY LOU LEVY,
____________

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit
____________
BRIEF OF NATIONAL SCHOOL BOARDS ASSOCIATION, AASA, THE
SCHOOL SUPERINTENDENTS ASSOCIATION, THE NATIONAL
ASSOCIATION OF ELEMENTARY SCHOOL PRINCIPALS, AND THE
NATIONAL ASSOCIATION OF SECONDARY SCHOOL PRINCIPALS AS
AMICI CURIAE IN SUPPORT OF PETITIONER
____________
CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel for Amici Curiae National School Boards
Association,

AASA,

the

School

Superintendents

Association,

the

National

Association of Elementary School Principals, and the National Association of
Secondary School Principals, and a member of the Bar of this Court, hereby certify
that on the 1st day of March, 2021, I caused to be served three (3) copies of the Brief
of National School Boards Association, AASA, the School Superintendents
Association, the National Association of Elementary School Principals, and the
National Association of Secondary School Principals as Amici Curiae in Support of

Petitioner in the above-referenced case by first-class mail, postage prepaid, upon
the counsel for Petitioner and Respondents as listed below:
Lisa S. Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Counsel for Petitioner
Witold J. Walczak
ACLU of Pennsylvania
P.O. Box 23058
Pittsburgh, PA 15222
(412) 681-7864
vwalczak@aclupa.org
Counsel for Respondents
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief of National School Boards Association, AASA, the School
Superintendents Association, the National Association of Elementary School
Principals, and the National Association of Secondary School Principals as Amici
Curiae in Support of Petitioner was transmitted to the above-listed counsel at the
referenced email addresses.

2

I further certify that all parties required to be served have been served.

By
Gregory G. Garre
Counsel of Record
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Amici Curiae
National School Boards
Association, et al.

3

